0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Keith Inchierchiere v. Florida Department
of Corrections, Attorney General of the State of Florida,
were sent via Three Day Service to the U.S. Supreme
Court, and 3 copies were sent via Three Day Service
and e-mail to the following parties listed below, this
25th day of February, 2020:
Mitchell A. Egber
Ashley Moody
Attorney General's Office
1515 N Flagler Drive
Suite 900
West Palm Beach, FL 33401
(561) 837-5000
mitchell_egber@myfloridalegal.com

Counsel for Respondents
Andrew B. Greenlee, Esq.
Counsel of Record
Andrew B. Greenlee, P.A.
401 E. 1st Street, Unit 261
Sanford, Florida 32772
407 -808-6411
andrew@andrewgreenleelaw .com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed cin February 25, 2020.

Julie A. Kershner
Becker Gallagher L
Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

·

[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

